         Audit of
NARA’s Telework Program


OIG Audit Report No. 11-20


   September 30, 2011
Table of Contents


Executive Summary ........................................................................................ 3

Background ..................................................................................................... 5

Objectives, Scope, Methodology .................................................................... 6

Audit Results ................................................................................................... 7

   Finding 1: Overall Management of NARA's Telework Program Lacking. 7

   Finding 2: NARA's Telework Guidance not Consistently Implemented . 14

   Finding 3: Security of NARA's Work-at-Home System is Vulnerable .... 20

Appendix A – GAO Key Telework Practices for Implementation of
  Successful Federal Telework Programs................................................... 30

Appendix B – Management's Response to the Report.................................. 31

Appendix C – Report Distribution List......................................................... 32
                                                                          OIG Audit Report 11-20


Executive Summary

The National Archives and Records Administration (NARA) Office of Inspector General (OIG)
completed an audit of NARA’s Telework Program. NARA developed the “Flexiplace” pilot
program to comply with a mandate in allowing eligible NARA employees the opportunity to
telework. Further, NARA implemented the Work-at-Home System (WAHS) to provide a remote
access capability to teleworkers. During this audit, we assessed whether NARA is fully
capitalizing on the identified benefits of telework and administering its telework program in
accordance with Federal regulations and NARA policy.

Public Law 106-346 §359, Department of Transportation and Related Agencies Appropriations
Act, 2001 (the Appropriations Act), dated October 23, 2000, established a legislative mandate for
Federal telework. The Appropriations Act requires each executive agency to establish a policy
under which eligible employees of the agency may participate in telework to the maximum
extent possible without diminished employee performance. Further, the Appropriations Act
designates the Office of Personnel Management (OPM) as the lead in ensuring the requirements
are applied to the entire Federal workforce. One of the tools OPM has promoted is the “Key
Practices for the Implementation of Successful Telework Programs.” Many of these key
practices became legislatively mandated following the passage of Public Law 111-292, Telework
Enhancement Act of 2010, which was signed into law on December 9, 2010.

Our review found that although NARA has had a pilot telework program in place since
September 2001, the program does not fully encompass key best practices or facilitate the
realization of identified benefits associated with teleworking. Further, the implementation of
NARA’s pilot telework program does not reflect key objectives of the agency’s Transformation
initiative. These conditions are due to inadequate managerial and administrative support of
NARA’s telework program. These same factors resulted in a lack of training, guidance, and
assistance for telework supervisors, which have negatively impacted the overall implementation
of NARA’s telework program. The Telework Enhancement Act established many requirements
that were due 180 days from its enactment. NARA is currently taking efforts to implement the
long established key practices that have now become requirements; however, NARA is currently
non-compliant with the Telework Enhancement Act.

Although OPM has identified benefits associated with telework, the practice invites risk and
abuse if employees are not adequately trained, equipped, monitored and subject to appropriate
supervision. These risk factors clearly exist at NARA.

Further, our review found that NARA’s WAHS remains vulnerable to the threats it was designed
to mitigate. The WAHS was not fully developed, tested, or administered in accordance with
NARA policy and NIST security standards. Security requirements have not been met and in
some cases remain untested. Now in full production, the WAHS is unnecessarily at risk of
compromise, and controls in place to mitigate or detect such an event are insufficient.




                                              Page 3
                           National Archives and Records Administration
                                                                        OIG Audit Report 11-20


Our audit identified several improvements to be made to NARA’s overall telework program. We
made a number of recommendations to more thoroughly ensure the telework program meets
mandated requirements and improvements are made to the security of the WAHS.




                                            Page 4
                         National Archives and Records Administration
                                                                                              OIG Audit Report 11-20


Background

Over the past decade, telework programs have become increasingly widespread throughout the Federal
Government. The Office of Personnel Management (OPM)—tasked by Congress to assist executive
agencies in developing telework programs—defines telework as “work arrangements in which an
employee regularly performs officially assigned duties at home or other worksites geographically
convenient to the residence of the employee.” Although addressed by various names (i.e.,
“telecommuting,” “work at home,” “flexible work,” etc.), the general concept of telework within the
Federal Government has been present and in use for many years.

In fiscal year 2001, the Department of Transportation and Related Agencies Appropriation Act (Public
Law 106-346 §359) included a provision that required each executive agency to establish a policy under
which eligible employees may participate in teleworking to the maximum extent possible without
diminished employee performance. In complying with this requirement, on September 6, 2001, NARA
issued interim guidance entitled “Flexiplace,” establishing a pilot telework program within the agency.
Due to the program’s initial success, additional interim guidance was issued over the next five years to
extend the pilot program and allow more offices within NARA to participate. The most recent interim
guidance extending NARA’s pilot telework program is dated August 8, 2006.

In mid 2007, NARA recognized a need to develop an enterprise-level remote access solution, in part, to
support NARA’s telework program. In August 2008, the Work-at-Home System (WAHS) began an
initial pilot phase, followed by full operational capability in September 2009. The WAHS was designed
to enable secure, remote access to selected General Support Systems (GSS) that reside on NARA’s
Network. The WAHS is licensed to support 250 concurrent teleworkers.

Most recently, Congress passed the Telework Enhancement Act of 2010, which was signed into law on
December 9, 2010. The Telework Enhancement Act establishes additional requirements for Federal
telework programs. Many of these requirements reflect key practices that were initially promoted by
OPM and other agencies within the Federal Government (see Figure 1 for a timeline of these events).

Figure 1: Timeline of NARA’s Telework Program

                                                                                           2010 Telework
  2001 Transportation                           2006 NARA's Latest                        Enhancement Act;
   Appropriation Act;                            Interim Guidance                         Further Telework
    Requiring Each                             300-32 Extending the                      Requirements within
  Agency to Establish a                           Telework Pilot                             the Federal
    Telework Policy                                  Program                                Government




                          2001 NARA Develops                             2009 NARA
                            the "Flexiplace"                           Implements the
                             Telework Pilot                           WAHS to Provide
                                Program                               Remote Access to
                                                                          NARANet




                                                       Page 5
                                    National Archives and Records Administration
                                                                                          OIG Audit Report 11-20


Objectives, Scope, Methodology

The overall objective of this audit was to determine whether NARA is fully capitalizing on the
identified benefits of telework and administering its telework program in accordance with
Federal regulation and NARA policy. Our review focused on whether NARA management was
aligning its telework program to meet established and recently enhanced Federal telework
requirements. Further, this audit covered the implementation of NARA’s telework program in
terms of supervisory involvement and information security.

To accomplish our objective, we interviewed key NARA personnel from the Office of
Administration 1 and the Office of Information Services and examined NARA policies governing
its telework program. We gained an understanding of NARA’s documentation and approval
process for establishing individual telework arrangements. We reviewed program
documentation for NARA’s Work-at-Home System (WAHS) in regards to information security.
Further, we met with a sample of telework supervisors and teleworkers from offices throughout
the agency to observe and gain an understanding of the actual implementation of the telework
program. We compared the implementation of the telework program to NARA’s policy. In
addition, we compared NARA’s telework policy and WAHS to applicable Federal regulation and
other telework guidelines, specifically: the Department of Transportation and Related Agencies
Appropriation Act, 2001 (Public Law 106-346 §359); The Telework Enhancement Act of 2010
(Public Law 111-292); National Institute of Standards and Technology (NIST) SP 800-46, Guide
to Enterprise Telework and Remote Access Security; Office of Personnel Management (OPM),
Guide to Telework in the Federal Government; Government Accountability Office (GAO)-04-
950T, Human Capital: Key Practices to Increasing Federal Telework; and GAO-03-679, Human
Capital: Further Guidance, Assistance, and Coordination Can Improve Federal Telework
Efforts.

Our audit work was performed at Archives II in College Park, Maryland; Archives I in
Washington, DC; and various telework alternative work locations throughout Maryland. The
audit took place between February 2011 and July 2011. We conducted this audit in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.




1
  NARA underwent a Transformation effort during the timeframe of this audit. Office names and symbols have
subsequently changed to reflect the reorganization. However, the previous office names and symbols are used in the
body of this report to reflect the historical names of the offices involved throughout the development of the telework
program, as well as to remain consistent with the office names used in applicable NARA policy. Recommendations
are addressed using the most current office and management titles.


                                                    Page 6
                                 National Archives and Records Administration
                                                                          OIG Audit Report 11-20


Audit Results

1. Overall Management of NARA’s Telework Program Lacking
Although NARA has an established pilot telework program, the program does not fully
encompass key best practices or facilitate the complete realization of identified benefits
associated with teleworking. These conditions exist because NARA has not provided adequate
managerial and administrative support, nor significantly updated or promoted its nearly decade-
old interim guidance—despite ever increasing emphasis on telework throughout the Federal
Government. As a result, NARA’s telework program must try to catch-up to well established
best practices that have now become legislatively mandated telework requirements.
Additionally, in delaying action until now, NARA has missed opportunities to further reduce
costs, increase resiliency and preparedness, and enhance the quality of employee work-life.

Public Law 106-346 §359, Department of Transportation and Related Agencies Appropriations
Act, 2001 (the Appropriations Act), dated October 23, 2000, provides the initial legislative
mandate for Federal telework. The Appropriations Act requires each executive agency to
establish a policy under which eligible employees of the agency may participate in telework to
the maximum extent possible without diminished employee performance. The conference report
for the Appropriations Act provides additional detail on this requirement, stating “each agency
participating in the program shall develop criteria to be used in implementing such a policy and
ensure that managerial, logistical, organizational, or other barriers to full implementation and
successful functioning of the policy are removed. Each agency should provide for adequate
administrative, human resources, technical, and logistical support for carrying out the policy.”
Further, the Appropriations Act designates the Office of Personnel Management (OPM) as the
lead in ensuring the requirements are applied to the entire Federal workforce.

In this capacity, OPM assists agencies in developing policy and reports on telework progress,
guidance, and best practices. OPM’s telework website (telework.gov) contains a number of tools
and resources to aid agencies in staying abreast of the evolving telework best practices.
Specifically, OPM has adopted “Key Practices for the Implementation of Successful Telework
Programs” (see Appendix A for the complete list). These key practices, which were first
identified by the U.S. Government Accountability Office (GAO) in July 2003, are divided into
seven categories that range from planning to program evaluation.

In an initial effort to comply with the telework requirements of the Appropriations Act, NARA
issued Interim Guidance 300-13, Flexiplace, on September 6, 2001. In addition to establishing a
pilot telework program within NARA, the guidance details responsibilities, participation
eligibility, standards of conduct, and other requirements of the program. Minor updates were
made to NARA’s interim guidance over the years; however, the majority of the policy has
remained unchanged.

During our review—while examining NARA’s telework policy and program implementation and
administration—we identified a number of key practices that had yet to be incorporated into

                                              Page 7
                           National Archives and Records Administration
                                                                           OIG Audit Report 11-20


NARA’s telework program. These unimplemented key practices are described under the seven
categories below.

      •   Program Planning. Until recently, NARA had not established a telework
          coordinator. According to OPM, this is the first of many important steps in planning
          for an effective telework program. Further, NARA has not established a cross-
          functional team, which has resulted in the separate development of the telework
          program and the Office of Information Services (NH) Work-at-Home System
          (WAHS). Proper funding is also necessary for an effective telework program.
          Officials from the Office of Administration (NA) stated funding has not been
          sufficient to meet the needs of NARA’s telework program. NA officials estimate
          they only have funding for one quarter of a full time equivalent (FTE) devoted to the
          telework program, however, they estimate it requires at least one FTE

      •   Telework Policy. A major component of an effective telework policy includes
          developing a telework agreement for use between all teleworkers and their managers.
          NARA’s pilot telework policy only requires telework agreements to be established
          between teleworkers who participate on a recurring basis. Ad hoc teleworkers are not
          currently required to sign an agreement. Further, in order for the policy to be
          effective, it should be free from ambiguity and redundancy. NARA’s policy contains
          conflicting and unclear statements; examples include the number of telework days
          allowed and whether or not Senior Executives may participate.

      •   Performance Management. GAO reported that agencies need to establish
          guidelines to minimize adverse impacts that telework can have on non-teleworkers
          before employees begin to work at alternative worksites. Although NA has identified
          this as a scenario that is present at NARA—which negatively impacts telework
          participation—guidelines to minimize the adverse impact on non-teleworkers have
          not been established.

      •   Managerial Support. GAO identified that it is critical to obtain support from top
          management and to address managerial resistance in establishing an effective
          telework program. Based on interviews with telework personnel, coupled with the
          historically slow growth of telework participation within NARA, further
          improvement in management support is needed. OPM encourages agencies and
          managers to be creative in considering the use of telework; it should not be an “all or
          none” proposition. OPM guidance further states most, if not all, jobs include some
          duties that are considered “portable” and do not necessarily require the employee to
          be physically present at the regular worksite.

      •   Training and Publicizing. OPM’s key practices state, at a minimum, telework
          training should be provided to managers and teleworkers. According to NA
          personnel, NARA has offered very little training related to telework. NA officials
          stated an indirect effort to promote telework involved requiring NARA employees to
          differentiate telework from duty station work on their timesheets; however, again


                                             Page 8
                          National Archives and Records Administration
                                                                           OIG Audit Report 11-20


           citing lack of resources, NA stated very few specific telework promotional activities
           have taken place.

       •   Technology. OPM key practices report agencies should conduct an assessment of
           teleworker and organization technology needs. Further, the key practices include
           providing technical support for teleworkers. NA and NH did not establish a cross-
           functional team to determine the requirements for NARA’s WAHS. As a result,
           required capabilities did not fully reflect actual needs. In addition, NARA telework
           policy is ambiguous in terms of whether or not NARA provides technical support to
           teleworkers, stating “the employee installs, services, and maintains any personal
           equipment and furniture to be used.” NARA does not specifically mention technical
           support in its telework guidance.

       •   Program Evaluation. GAO reported that agencies should develop program
           evaluation tools and use such tools from the very inception of the program to identify
           problems or issues with the program and to develop an action plan to guide any
           necessary changes. In addition, the key practices include tracking participation
           numbers with a reliable system. NARA has not established consistent processes,
           procedures, or tracking systems to collect data to evaluate the telework program.
           Further, until recently, NARA has not used a reliable system to track telework
           participation.

Regular attention by agencies to the key practices is important to foster program growth and
remove barriers to telework participation. For example, in 2002, OPM had already reported that
training was by far the most frequently cited tool for expanding telework participation and
addressing the wide array of telework barriers and concerns. However, as mentioned above,
telework training has yet to be fully utilized at NARA. The results of not fully implementing
well established telework key practices is reflected in the relatively flat growth in number of
NARA employees participating in the telework program over the years.

Management of NARA’s Telework Program

Around the time NARA established its initial pilot telework program in September 2001, NA
began providing OPM with data related to NARA employee participation and other progress
measurements. OPM compiles this information from each agency on an annual basis and then
reports to Congress on the status of telework in the Federal Government. The chart below
depicts the data NARA provided to OPM—as reported in OPM’s annual status reports—
including the number of staff eligible to telework and the number of actual teleworkers at NARA
(see Figure 2).




                                              Page 9
                           National Archives and Records Administration
                                                                                         OIG Audit Report 11-20


Figure 2: NARA's Input to Annual OPM Data Calls Reported to Congress

                                3500

                                3000

                                2500
               NARA Employees


                                2000

                                1500

                                1000

                                 500

                                  0
                                       2001   2002   2003   2004    2005   2006   2007    2008   2009
        Eligible Employees 1500               1457   3117   1767     85    1300   1086    2780   1054
        Teleworkers                     38     80     165    170    129     123    128    205    334



Although NA has recently implemented a more scientific method of tabulating telework data
within NARA, the chart above provides a historical perspective of the level of management
afforded to reporting NARA telework data to OPM. When asked about the fluctuations in
number of NARA employees eligible to telework from year to year, NA personnel stated “bad
data” was reported in some years. Other factors may include discrepancies in calculation
methods. This data is also used in measuring goals of overall telework participation levels. NA
personnel stated the participation goal of NARA’s telework program is to have at least 15
percent of eligible employees telework. However, without consistent eligibility criteria or
measuring methods, NARA cannot reasonably determine if it is meeting its goal. For example,
the last two years of data reported indicate participation levels jumped from 7 percent to 32
percent. Although there was notable growth in telework participation during this period, the
increased participation rate is exaggerated by a drastic reduction in the number of telework
eligible staff reported.

In terms of overall management of NARA’s telework program, NA personnel stated until
recently, NARA did not have a designated telework coordinator or any other staff specifically
dedicated to the management of the program. OPM guidance states each agency should
designate a telework coordinator who acts as the key contact for policy and program questions.
Further, OPM guidance instructs managers and teleworkers to maintain frequent contact with
their telework coordinator to ensure the agency’s policy and procedures are properly applied and
to ensure awareness of the full range of support and resources available. During the entrance
conference with NA, management was unable to identify the NARA staff member listed on the
OPM telework website as the Telework Coordinator for NARA’s program. Further, the phone
number listed on NARA’s most recent Interim Guidance is outdated and does not belong to the
person listed, nor does it belong to the person currently responsible for providing telework

                                                           Page 10
                                        National Archives and Records Administration
                                                                              OIG Audit Report 11-20


assistance. NA cited turnover and insufficient resources for the reasoning behind the current
management state of NARA’s telework program.

Management of NARA’s Telework Policy

Another basic tenet of a successful telework program involves developing an agency-wide
telework policy. NARA issued Interim Guidance 300-13, Flexiplace, on September 6, 2001.
The purpose of this initial guidance was to establish a pilot telework program at NARA for a six-
month period beginning on October 1, 2001. Based on the success of the initial telework
program, an extension of the pilot was granted on three separate occasions through the issuance
of the following revised interim guidance:

   •   Interim Guidance 300-21, Flexiplace, dated November 14, 2002;
   •   Interim Guidance 300-28, Flexiplace, dated October 19, 2005; and
   •   Interim Guidance 300-32, Flexiplace, dated August 8, 2006.

All three updates made to NARA’s telework guidance state the same purpose, which is to extend
the pilot program. Apart from revisions to eligibility qualifications and the number of
specifically identified NARA offices allowed to participate in recurring telework, very few
changes have been made in comparison to NARA’s initial version issued in September 2001.
Furthermore, the telework agreement and arrangement forms—which are used to document
telework agreements between managers and teleworkers—have remained unchanged for nearly
ten years, and contain references to outdated policy.

Although many key telework best practices were identified by OPM and GAO as early as July
2003, NARA’s subsequently issued revised interim guidance did not reflect these key practices.
Furthermore, after nearly a decade, NARA’s telework program remains in a pilot phase, and the
guidance remains “interim.” NA management recognizes that the telework policy needs to be
revised, stating in one meeting “even the name ‘Flexiplace’ is outdated.” NA officials stated they are
in the process of revising the telework policy.

Increased Emphasis on Telework

Over the last few years, NARA’s telework program has remained relatively stationary, with few
updates to the policy, minimal promoting and training, and little overall management attention.
However, during the same timeframe, telework practices were evolving more drastically
elsewhere in the Federal Government. Apart from the key practices identified earlier, OPM’s
annual reports to congress have consistently provided lessons learned and additional guidance
based on information canvassed from agencies throughout the Federal Government. Further,
OPM has provided updated guides on teleworking, which outline practical information to assist
agencies in implementing telework programs.

Increased emphasis on telework has been observed at all levels of the government. In March
2010, the President hosted a White House Forum on “Work-Life Balance and the Economics of
Workplace Flexibility.” The forum identified evidence supporting a potential boost in
productivity and morale as a result of implementing flexible workplace practices. Other benefits


                                               Page 11
                            National Archives and Records Administration
                                                                            OIG Audit Report 11-20


associated with flexible workplace arrangements identified include improved employee health
and decreased absenteeism—a major cost for employers. The forum report concluded by stating
“…it is critical for the 21st century U.S. workplace to be organized for the 21st century
workforce.”

Furthermore, through a number of legislative actions, Congress has promoted telework programs
in an effort to further accomplish a number of positive outcomes. This culminated in the passage
of the Telework Enhancement Act of 2010, which was signed into law on December 9, 2010.
The Telework Enhancement Act legislatively mandates many of the key practices identified
early on by OPM and GAO. Some of which include:

   •   Designating a Telework Managing Officer;
   •   Notifying all employees of the agency of their eligibility to telework;
   •   Requiring all teleworkers to have a written agreement;
   •   Ensuring that an interactive telework training program is in place for all eligible
       employees, managers, and teleworkers;
   •   Purchasing computer systems that enable and support telework;
   •   Submitting data to OPM reporting on the degree of telework participation; and
   •   Setting and reporting on telework related goals.

Now that these key practices have become mandatory, NARA must ensure compliance. The
majority of the requirements contained within the Telework Enhancement Act were to be
implemented by June 7, 2011 (180 days after the act was signed into law). NA officials stated
they were in the process of updating NARA’s telework policy and implementing the newly
mandated requirements of the Telework Enhancement Act. However, as of the June 7, 2011
deadline, NARA has yet to issue revised policy or guidance pertaining to its telework program.
NA personnel stated they expect the policy to be issued shortly.

Implications of Delayed Action

OPM and agencies throughout the Federal Government have identified and reported numerous
benefits associated with teleworking, some of which include:

   •   Assists with recruiting and retaining the best possible workforce,
   •   Ensures continuity of operations and maintains operations during emergency events,
   •   Promotes management effectiveness by targeting reductions in management costs related
       to employee turnover and absenteeism,
   •   Reduces real estate costs, transit costs, and environmental impact,
   •   Enhances work/life effectiveness and balance, and
   •   Allows employees to better manage their work and family obligations, thereby retaining a
       more resilient, results-oriented workforce better able to meet agency missions and goals.

On June 8, 2011—the day after many of the Telework Enhancement Act requirements went into
effect—representatives from the Nuclear Regulatory Commission (NRC) and the General
Services Administration (GSA) spoke at a forum detailing the benefits of telework realized at
their respective agencies. The representatives noted that it was not a coincidence that their

                                              Page 12
                           National Archives and Records Administration
                                                                          OIG Audit Report 11-20


agencies had well established telework programs and also ranked in the top-ten of OPM’s annual
Federal Employee Viewpoint Survey in terms of employee satisfaction (NRC: first place; GSA:
seventh place). In contrast, NARA—with its less developed telework program—is currently tied
for last place in a ranking conducted by the Partnership for Public Service. Although telework is
only one factor, with the passage of the Telework Enhancement Act, NARA must ensure it is
thoroughly addressed. Until NARA devotes the resources and attention necessary to implement
its telework program consistent with mandates and key practices, the agency will continue to
delay the full realization of identified telework related benefits and remain non-compliant with
the Telework Enhancement Act. Offering employees the opportunity to telework can result in
heightened job satisfaction. If properly instituted at NARA, teleworking can help support
NARA's transformation initiative of making NARA "A Great Place to Work."

Recommendations

1. We recommend the Chief Human Capital Officer (H):

       a. Revise NARA’s telework policy and implement NARA’s telework program to
          incorporate OPM and GAO’s “Key Practices for the Implementation of Successful
          Telework Programs.”
       b. Monitor compliance with deadlines and requirements established in the Telework
          Enhancement Act.
       c. Establish a cross functional team with the Office of Information Services (I) to ensure
          remote access capabilities will meet increased NARA telework demands and to
          ensure appropriate security guidance is included in NARA telework policy.
       d. Develop a method and common criteria for tracking telework participation.

Management Response

Management concurred with the recommendations.




                                              Page 13
                           National Archives and Records Administration
                                                                           OIG Audit Report 11-20


2. NARA’s Telework Guidance not Consistently Implemented
Our review revealed a number of telework supervisors did not consistently and properly
implement NARA’s telework program in accordance with NARA policy and OPM guidance.
This occurred due to an overall lack of telework training, misunderstanding of telework guidance
and forms, and confusion as to who NARA’s telework coordinator is and how to obtain
additional assistance regarding NARA’s telework program. As a result, telework is not always
conducted appropriately and required telework supervision and management is often not
achieved.

NARA Interim Guidance 300-32, Flexiplace, dated August 8, 2006, is the most recent version of
NARA’s telework policy. Like previous versions, the policy incorporates telework supervisor
responsibilities. The main supervisory responsibilities include approving, disapproving, or
terminating telework arrangements, as well as, monitoring teleworker productivity and
performance. To further facilitate these responsibilities, NARA’s telework policy contains a
number of documentation requirements. The forms used in support of NARA’s telework
program include the following:

   •   NA Form 3038, Request for Ad Hoc Flexiplace Arrangement—for teleworkers
       participating on an ad hoc basis, this document describes the hours or days being
       requested, the specific assignments or projects to be worked on during the period away
       from the office, and the products or progress that can reasonably be expected to be
       accomplished during the period away from the office. The form must be submitted and
       written supervisor approval granted prior to the ad hoc telework commencing and signed
       again upon review of the accomplishments documented at the completion of the
       telework.

   •   NA Form 3039, Request for Recurring, Scheduled Flexiplace Arrangement—for
       teleworkers participating on a recurring basis, this request form contains the telework
       employee’s name and occupational information, expected duration of proposed telework
       arrangement, specific work schedule, and other evaluation information. The form must
       be submitted and approved by the office head and the employee’s immediate supervisor
       prior to the recurring telework commencing.

   •   NA Form 3040, Flexiplace Agreement—NARA’s Interim Guidance requires telework
       candidates to enter into this agreement prior to beginning a recurring telework schedule.
       The form documents the duty station, alternative workplace, and work schedule, and
       includes additional requirements that must be met by the teleworker and supervisor.
       Once completed, the form must be signed and retained by both the telework employee
       and supervisor.

   •   NA Form 3041, Self-Certification Safety Checklist for Home-Based Flexiplace
       Participants—this form, completed by the telework candidate, provides a level of
       assurance that the alternative workplace proposed is a safe work environment. The form
       includes the employee’s work address and alternate worksite location, as well as a
       questionnaire related to the workplace environment and computer workstation. The form

                                             Page 14
                          National Archives and Records Administration
                                                                             OIG Audit Report 11-20


       must be submitted and receive supervisory approval before either ad hoc or recurring
       telework may commence.

In addition to NARA policy, OPM’s “Guide to Telework in the Federal Government,” provides
insight on how to be an effective telework manager. The guidance states the teleworker and
manager should enter into a written agreement for every type of telework, whether the employee
teleworks regularly or ad hoc. The written agreement provides a framework for the discussion
that needs to take place between the manager and teleworker about expectations. Further, OPM
states telework agreements are “living documents” that should be revisited by the manager and
teleworker and re-signed regularly, preferably at least once a year. The guidance states
management expectations of a teleworker’s performance should be clearly addressed in the
telework agreement. Lastly, as with onsite employees, teleworkers must be held accountable for
the results they produce.

In performing our review, we interviewed 19 telework supervisors from nine different offices
within NARA and requested the telework documentation of the over 100 telework staff they
collectively supervise. The documentation sampled represented nearly one third of all NARA
teleworkers. In addition, we interviewed and observed five teleworkers from their respective
alternative worksites. Based on our interviews and observations, and our analysis of telework
documentation, we determined a number of telework supervisors did not consistently and
properly implement NARA’s telework program in accordance with NARA policy and OPM
guidance. Specifically, many of the controls put in place to promote oversight, accountability,
and productivity were not fully applied by all telework supervisors.

For example, one basic telework supervisor oversight and accountability practice involves
maintaining an awareness of employee work schedules. Both NARA Interim Guidance 300-32
and NA Form 3040 require the employee to either 1) log in and log out each workday via e-mail
to their supervisor, or 2) complete a self-certification statement if they log in and log out by
telephone. Despite this requirement, not all supervisors interviewed required their telework staff
to directly e-mail workday log ins and log outs. Further, when asked, not all telework staff were
aware of this requirement.

NA Form 3038, Request for Ad Hoc Flexiplace Arrangement contains a built in control related to
accountability and productivity. The top half of the form includes information related to the
expected work to be conducted while teleworking. The bottom half of the form, which is
completed after the telework has taken place, describes the actual work accomplishments. The
supervisor is required to sign off both prior to the telework and once again after the telework is
completed. NARA policy requires that supervisors retain these completed forms for at least one
year. However, a number of NA Forms were either not signed in a timely manner or all together
missing from the samples we requested.

In addition, comparisons of the telework documentation provided by the supervisors and
NARA’s remote user access log further substantiate non-adherence to the aforementioned
controls. Although most supervisors stated that sign in/out e-mail procedures were implemented
within their respective offices, access logs identified a number of teleworkers did not access their
e-mail within the surrounding hours of their scheduled telework. A number of factors may have


                                               Page 15
                            National Archives and Records Administration
                                                                           OIG Audit Report 11-20


contributed to employees not sending e-mails, including access and IT problems; however, in
situations where an e-mail cannot be sent, NARA policy requires the employee to call their
supervisor and complete a self-certification statement. Furthermore, in terms of retaining
documentation supporting approval, the remote access log indicated telework was performed
more often than the supervisor provided support documentation indicated.

Further, we identified numerous situations in which supervisors approved incomplete or
inaccurate telework documentation, or allowed telework to take place prior to having their staff
complete the required agreements and forms. Analysis of the four standard telework forms and
the identified deficiencies pertaining to each are described below.

                                        During the review, we obtained documentation for
     NA Form 3038, Request for          teleworkers who participated on an ad hoc basis. Of the
         Ad Hoc Flexiplace              32 ad hoc teleworkers sampled, 21 (or 66 percent) had
           Arrangement                  improperly completed NA Form 3038, Request for Ad
                                        Hoc Flexiplace Arrangements (see chart on the left). A
                         Properly       number of the NA Form 3038s were not approved prior
              34%                       to the telework taking place. Others did not provide
                         Completed
       66%
                                        explanations of the specific assignments or projects
                         Improperly
                         Completed      expected to be worked on during the time period away
                                        from the office and some had blanket approval that
                                        spanned months without listing specific dates for the ad
hoc work to take place. Further, a number of the forms provided generic accomplishment
responses and supervisors often did not sign off on the forms in a timely manner once the
telework was completed.

In addition, we obtained documentation for 71
teleworkers who participated on a recurring basis. Of             NA Form 3039, Request for
those sampled, 31 teleworkers (or 44 percent) had                    Recurring, Scheduled
improperly completed NA Form 3039, Request for                     Flexiplace Arrangement
Recurring, Scheduled Flexiplace Arrangements (see
chart on the right). Examples of the issues observed                                    Properly
include: unsigned and unapproved arrangements,                     44%                  Completed
arrangements with up to four days per week of telework                     56%
                                                                                        Improperly
without special approval, arrangements that had                                         Completed
surpassed their durations by up to two years,
arrangements that did not include the location of the
offsite workplace, arrangements with an offsite work location listed as a post office box or that
did not match the location listed on other documents, and arrangements in which work schedules
did not match those listed on other documents.


     NA Form 3040, Flexiplace           Although OPM guidance stipulates all teleworkers
           Agreement                    should sign an agreement, NARA policy only requires
                                        agreements for employees who telework on a recurring
                                        basis. Of the 71 NA Form 3040, Flexiplace Agreements

      35%                 Properly
                          Completed          Page 16
               65%        Improperly rchives and Records Administration
                          Completed
                                                                            OIG Audit Report 11-20


reviewed, 25 (or 35 percent) were improperly completed (see chart on the left). Examples of the
issues identified include: agreements that had not been updated in over four years, agreements
that were not signed or dated, agreements that did not include work schedules or the address of
the alternative workplace, and agreements that were incomplete or altered to remove pertinent
data.

Further, NARA policy requires all teleworkers
(regardless of ad hoc or recurring) to complete a NA              NA Form 3041, Self-
Form 3041, Self-Certification Checklist for Home-Based         Certification Checklist for
Flexiplace Participants. However, not all sampled               Flexiplace Participants
NARA teleworkers had completed the checklist. Of the
95 available for review, 63 (or 66 percent) had completed                           Properly
                                                                         34%
NA Form 3041 improperly (see chart on the right).                                   Completed
Examples of the issues observed include: forms that did         66%                 Improperly
not contain the address of the location being self-                                 Completed
certified, forms that were not signed or dated, supervisors
that were unaware that checklists had to be completed by
employees teleworking on an ad hoc basis, and telework allowed prior to obtaining an approved
checklist.

Overall Lack of Telework Training

OPM identified training as the most frequently cited tool for addressing telework concerns.
Further, OPM has highlighted how telework training has increased the success of telework
programs at other agencies. However, during our interviews with teleworkers and telework
supervisors, none were aware of or could recall participating in telework specific training. NA
officials acknowledged, due to a lack of resources, there has not been an organized effort to train
telework managers and staff.

The Telework Enhancement Act has established new requirements related to telework training.
According to the Act, agencies must ensure that an interactive telework training program is
provided to all managers and all eligible telework employees. Further, employees must
successfully complete the interactive training before entering into a written agreement to
telework.

Misunderstanding of Telework Guidance and Forms

OPM guidance states telework policy for each agency should be designed and written to serve as
a useful, practical resource to telework employees, managers, supervisors and others with a need
to know about the agency’s telework program. Further, OPM recommends the policy be
organized logically and avoid the use of ambiguous terms and redundancies. Although most
telework supervisors stated they relied almost exclusively on NARA’s telework policy to
implement the telework program within their respective offices, the inconsistencies between
offices highlighted a number of misunderstandings regarding the telework policy. For example,
some supervisors were unsure which forms applied to each type of telework situation, in some
cases this resulted in teleworkers not completing the required forms.


                                              Page 17
                           National Archives and Records Administration
                                                                           OIG Audit Report 11-20



Further, NARA’s policy contains a number of ambiguous and redundant requirements. For
example, in terms of the number of days per week an employee can participate as a recurring
teleworker, NARA’s policy offers three different answers: 1) one or more days per week, 2) up
to two days per week, and 3) typically less than half of the employee’s official duty station in
any given pay period. Similarly, NARA’s limit on the number of days an employee can telework
ad hoc is equally ambiguous, the policy states the following: 1) the employee typically works for
a day or two, 2) no more than two day-long periods or equivalent time during a pay period, and
3) as long as your supervisor is satisfied with your performance during these occasional ad hoc
periods (typically no more than one ad hoc period during a given pay period), there is no limit to
the number of ad hoc periods you may work.

Another concept interviewed supervisors were unsure about pertained to whether or not Senior
Executives were permitted to telework. NARA’s policy does not specifically address this issue.
However, OPM states managers and supervisors must be committed to using telework to the
fullest extent possible if Federal telework programs are to succeed. OPM—citing research in the
work/life field—states supervisors, managers and senior executives who model the use of
workplace flexibilities such as telework in any organization serve as key drivers in effecting
positive cultural change in that organization.

Limited Awareness of Available Telework Guidance and Assistance

OPM and GAO best practices have long established that agencies should designate a Telework
Coordinator who acts as the key contact for policy and program questions. Further, OPM states
managers should maintain frequent contact with the Telework Coordinator to ensure the
agency’s policy and procedures are properly applied and to ensure full awareness of the range of
support and resources available. However, during our interviews of teleworkers and supervisors,
we asked if anyone was familiar with NARA’s Telework Coordinator. Only one of the
interviewees was able to identify NARA’s Telework Coordinator and many were unaware that
there was even such a position at NARA. These responses were expected, as NA had only
recently officially assigned the Telework Coordinator position.

With the enactment of the Telework Enhancement Act, agencies are now required to designate a
Telework Managing Officer. The Telework Managing Officer will take on the role of serving as
the primary point of contact for policy and program questions. OPM guidance recommends
telework staff that have questions or issues should now direct their concerns to the Telework
Managing Officer. In addition, the Telework Managing Officer will be a senior official with
direct access to the Archivist and will be devoted to policy development and implementation
related to NARA’s telework program.

Impact of Inconsistent and Inadequate Implementation of Telework Policy and Guidance

Effective performance management is recognized as a key component of a successful telework
program. OPM guidance states management expectations for performance should be clearly
addressed—and like non-teleworking employees—teleworkers should be held accountable for
the results they produce. NARA’s telework policy provides a number of tools to facilitate


                                              Page 18
                           National Archives and Records Administration
                                                                          OIG Audit Report 11-20


telework oversight and communication between the supervisor and teleworker. However, due to
a lack of adequate training, guidance, and support, supervisors are not consistently implementing
the telework program in accordance with policy and best practices. NA officials acknowledged
further efforts need to be made to ensure NARA’s telework program meets established
requirements.

Further, although agencies are required to establish policy under which eligible employees may
participate in telework to the maximum extent possible, this is dependent upon undiminished
employee performance. OPM guidance states the manager must be kept apprised of the
teleworker’s schedule, how to make contact with the teleworker, and the status of all pending
work. However, NARA telework managers have not consistently implemented the controls that
facilitate communication and mitigate the inherent reduction in physical oversight and
supervision associated with telework. Until NARA fully implements its telework program in
accordance with the Telework Enhancement Act and best practices, it will not be able to ensure
proper telework performance management.

Recommendations

2. We recommend the Chief Human Capital Officer (H):

       a. Develop training in accordance with the Telework Enhancement Act and OPM
          guidance to ensure agency wide understanding of the telework program and policy.
       b. Establish a process for sampling and reviewing telework forms for adequacy and
          accuracy.
       c. Publicize the name of the designated Telework Managing Officer and provide
          accurate contact information for future assistance.
       d. Ensure the revised telework policy is free of redundancies and conflicting
          requirements.
       e. Issue an annual notice reminding supervisors of their responsibilities regarding
          telework.

Management Response

Management concurred with the recommendations.




                                              Page 19
                           National Archives and Records Administration
                                                                           OIG Audit Report 11-20


3. Security of NARA’s Work-at-Home System is Vulnerable
Although NARA’s Work-at-Home System (WAHS) was developed to enhance remote access
security and provide enterprise-wide telework capabilities, the system remains vulnerable to the
threats it was intended to mitigate. This condition exists because the WAHS was not fully
developed, tested, or administered in accordance with NARA policy and Federal requirements.
As a result, NARA’s remote access system is at increased risk of security compromise and does
not meet the security capabilities and requirements that justified the system’s development.

NIST Special Publication 800-46, Guide to Enterprise Telework and Remote Access Security,
identifies the increased risk involved in implementing a remote access system. Specifically,
NIST SP 800-46 states remote access servers provide a way for external hosts to gain access to
internal resources, so their security is particularly important. In addition to permitting
unauthorized access to resources, a compromised server could be used to eavesdrop on remote
access communications and manipulate them, as well as to provide a “jumping off” point for
attacking other hosts within the organization. Further, NIST SP 800-46 states the nature of
remote access technology generally places it at higher risk than similar technologies only
accessed from inside the agency.

In order to address the increased risks of providing a remote access capability, risks must be
properly identified and protected against. NIST SP 800-53, Recommended Security Controls for
Federal Information Systems and Organizations, states it is of paramount importance that
responsible officials understand the risks and other factors that could adversely affect
organizational operations and assets, individuals, other organizations, and the Nation. Officials
must understand the current status of their security programs and the security controls planned or
in place to protect their information and information systems in order to make informed
judgments and investments that mitigate risks to an acceptable level. Further, NIST SP 800-53
creates a foundation for the development and assessment methods and procedures for
determining security control effectiveness.

NARA policy incorporates many of the NIST standards and identifies a number of tools and
procedures used to manage the security of its programs and systems. NARA 804, Information
Technology (IT) Systems Security, identifies security risk assessments and the development of
system security plans as two important activities used to ensure security measures are adequate.
The risk assessment influences the development of the security controls for particular
information systems and generates much of the information needed for the associated system
security plans. System security plans provide an overview of the information security
requirements and describe the security controls in place or planned for meeting those
requirements.

In August 2008, NARA began the initial pilot phase of its current remote access capability,
known as the Work-At-Home-System (WAHS). The WAHS was developed to support

                                              Page 20
                           National Archives and Records Administration
                                                                          OIG Audit Report 11-20


NARANet users’ ability to telework. The two fundamental business drivers for the WAHS
involved emergency preparedness and the need to implement a more secure level of
authentication. To address these business drivers, the WAHS incorporates two major
components: 1) Citrix Access Suite and 2) RSA SecurID. The Citrix Access Suite provides
application streaming capabilities to deliver the NARANet General Support System (GSS) to
remote desktops and laptops. This component also provides application security and access
control. The second component—the RSA SecurID—uses hardware tokens and an
authentication server in providing two-factor authentication to NARA’s Citrix, Virtual Private
Network (VPN), and web-based e-mail capabilities.

In addition to the business drivers, NH—in drafting the WAHS proposal—identified a number of
negative security implications if NARA did not adopt a new remote access approach. These
implications included:

   •   NARA will be non-compliant with specific Office of Management and Budget (OMB)
       mandates and Homeland Security Presidential Directives (HSPD) related to identification
       and authentication procedures;
   •   NARA will not have an enterprise-level remote access solution in place for its Work-at-
       Home staff;
   •   NARA staff members will be unable to access NARA@work or shared drives on
       NARANet servers from remote locations;
   •   NARANet e-mail will remain vulnerable to network and hacker attacks; and
   •   NARA will not be able to protect Personally Identifiable Information (PII) and NARA
       proprietary information from being distributed or compromised over its network and e-
       mail system.

Our review of the WAHS security requirements, testing, and administration found—despite
implementing the WAHS—many of the implications listed above remain. Specifically, NARA’s
electronic authentication process remains noncompliant with HSPD-12. Further, although the
WAHS requirements state the enterprise-level system shall support up to 3,000 users in the full
operating capability implementation, the WAHS is currently only licensed to allow concurrent
remote usage of approximately 8 percent of that requirement. Additionally, NARA’s web-based
e-mail application remains vulnerable to the same network and hacker attacks present prior to the
WAHS implementation. Lastly, NARA remains unable to protect PII and NARA proprietary
information from remote download, printing, or distribution.




WAHS Security Requirements Development



                                              Page 21
                           National Archives and Records Administration
                                                                            OIG Audit Report 11-20


In order to determine the early level of security control and requirements analysis that went into
the development of the WAHS, we requested requirements documentation from the WAHS
Project Manager and IT Security Staff (NHI). Within the scope of system security, we reviewed
the following WAHS requirements documentation:

   •   Full Proposal of the Work at Home project,
   •   WAHS CONOPS and Initial Requirements Specification, and
   •   WAHS Design Specification.

In addition to the fundamental business drivers and implications described earlier, the WAHS
Full Proposal provides an overall summary of the selected solution. A portion of this summary
describes how the Citrix Access Suite will provide application security and access control,
allowing fine levels of policy-based control over the actions users can take with such items as
printing and e-mail attachments. However, during our review, while observing volunteer
teleworkers working from their respective alternative worksites, we discovered NARA
employees still have the ability to print sensitive information (including PII) using the Citrix
application. This came as a surprise to NH officials—therefore, one NH official confirmed the
ability to print while working from home. However, NH officials later stated “apparently,
printing is suppose to be enabled per [the Deputy CIO] at his request.” Therefore, although the
WAHS proposal details the ability to control remote printing, this is not something NARA
utilizes. Further, although the Citrix application prevents teleworkers from downloading e-mail
attachments onto their personal computers, NARA has not disabled its Novell web-based e-mail
application, which functions separately from Citrix and does not restrict downloads. Therefore,
as observed during our site visits, teleworkers continue to download sensitive information onto
their personal computers. When asked why NARA continues to allow use of the less secure
Novell webmail application, NH officials initially stated they did not know, aside from “nobody
really wanted to let it go.” However, more recently, the same officials indicated discussions
were made about keeping the webmail application available so in a surge condition, e-mail
access would not be limited to the maximum number of concurrent users of the Citrix portal.

The second requirements document reviewed—CONOPS and Initial Requirements
Specification—describes the intended remote user access functions, remote user access services,
and IT infrastructure components of the WAHS. In addition, the document contains initial
requirements of the system. A selection of these requirements—as they relate to policy,
standards, scope, function, and security of the WAHS—include:

   •   The system shall provide two-factor authentication capabilities,
   •   The system shall comply with all NARA Enterprise Architecture standards and
       guidelines,
   •   The system shall implement all applicable IT security controls as specified in the IT
       Security Architecture,


                                              Page 22
                           National Archives and Records Administration
                                                                             OIG Audit Report 11-20


   •   The system shall complete all security certification and accreditation tasks prior to Initial
       Operating Capability (IOC) and Full Operating Capability (FOC), and
   •   The system shall support up to 3,000 users in the FOC implementation.

OMB Memorandum M-06-16, “Protection of Sensitive Agency Information” requires agencies
to allow remote access only with two-factor authentication where one of the factors is provided
by a device separate from the computer gaining access. The WAHS utilizes passwords and
Personal Identification Numbers (PINs) as one of the two-factors. The second factor—a device
separate from the computer gaining access—is met by employing RSA hardware tokens.
However, due to a recent sophisticated security breach that took place at the company that
produces the RSA tokens used by NARA, an NH official acknowledged the RSA token no
longer appears to be an effective component of a two-factor mechanism.

By no longer having a secure second factor, NARA is in effect relying on usernames and
passwords to control remote access to the network. NH officials have indicated that NARA’s
remote access system is still secure because in addition to using the RSA token and PIN, NH
never removed the Novell username and password access requirement. However, requiring a
user to enter multiple passwords instead of only one does not compensate for an ineffective
token device. User known passwords are vulnerable to—among other things—social
engineering, shoulder surfing, and keylogging. In terms of keylogging and other malware, the
WAHS was developed to allow access from any computer with an internet connection—whether
that is a user’s personal computer, the computer in a hotel lobby, or a computer at a public
library—therefore, NARA has no control over the malware installed on the computers used in
remotely accessing the network. An effective token generated access code mitigates these risks;
however, user known passwords and PINs alone remain vulnerable.

In terms of complying with NARA Enterprise Architecture standards, NARA IT Security
Requirements state the NARANet GSS shall provide multifactor access control as a common
control for remote and local access to the network. Further, the multifactor access mechanisms
shall include credentials from HSPD-12 compliant Personal Identity Verification (PIV) cards.
The WAHS CONOPS (dated February 28, 2008) state the RSA SecurID tokens are an “interim
solution” until NARA is able to implement PIV remote access authentication. Although HSPD-
12 had established the requirement in 2004, when asked when this upgrade was expected to take
place, an NH official stated it would be delayed until OMB “[tells] us to implement it whether
we like it or not” and sets a final deadline. OMB Memorandum 11-11 “Continued
Implementation of Homeland Security Presidential Directive (HSPD) 12—Policy for Common
Identification Standard for Federal Employees and Contractors,” dated February 3, 2011,
establishes this deadline as October 1, 2011.

In addition, Enterprise Architecture IT Security Policies identify a number of NARA IT security
objectives that apply to the WAHS. In particular, NARA must ensure that managers and users of
NARA information systems are made aware of the security risks associated with their activities.

                                              Page 23
                           National Archives and Records Administration
                                                                            OIG Audit Report 11-20


Further, NARA must ensure that personnel are adequately trained to carry out their assigned
information security-related duties and responsibilities. NH officials indicated that other than a
handout included with the distributed RSA tokens, no remote access IT security training has
been developed or provided to teleworkers or their supervisors.

WAHS Project Management personnel were unable to provide exact dates of IOC or FOC;
however, based on NARA Notices, the fully operational system was deployed in September
2009. Further, Project Management and NH personnel were unable to provide certification and
accreditation documentation specific to the WAHS. The April 8, 2010 System Security Plan
(SSP) for Network Infrastructure—which NH officials stated encompasses the WAHS—
indicates that several components of the Network Infrastructure have already been certified and
accredited as independent systems; however, the WAHS is not included in the list. Further, all
mention of the WAHS in the SSP states the project is still under development, despite the
WAHS reaching FOC seven months before the SSP update.

The Initial Requirements Specification indicates the WAHS will support up to 3,000 users. Both
NA officials and NH officials stated the telework program and the supporting WAHS were
developed independently from one another. This requirement reflects that lack of coordination,
as according to the most recent data obtained from NA, the greatest number of employees
actually teleworking in a given year since the program’s inception was 334. Further, NH
officials determined the greatest number of concurrent users was only 115. According to NH
officials, NARA is currently licensed to accommodate 250 simultaneous users. Although this
more precisely reflects actual usage, the WAHS must be able to support NARA’s telework
program once it is fully compliant with the Telework Enhancement Act.

In their recently updated Dismissal and Closure Procedures—with the advent of “unscheduled
telework”—OPM states agencies should ensure IT infrastructure is in place to allow large
numbers of employees to telework simultaneously. NH officials stated there is a point in which
a high volume of concurrent usage would result in a degradation of WAHS performance, but NH
has yet to determine actual system capacity. The chart below depicts the most recent tabulation
of telework eligible employees in comparison to the number of Citrix Application simultaneous
user licenses (see Chart 1 below). The number of eligible telework staff will likely increase once
NARA fully conforms to Federal telework mandates.




                                              Page 24
                           National Archives and Records Administration
                                                                              OIG Audit Report 11-20


Chart 1: Telework Eligible Staff in Relation to Citrix Users Licensed




                                                                   Citrix
                                                                Unlicensed,
         Telework Ineligible, Telework Eligible,                                   Citrix
                                                                    804          Licensed,
               2483                1054
                                                                                    250




The third requirements document reviewed—the WAHS Design Specification—details the
design of the WAHS. The information contained in the document reflects the requirements and
restraints of the CONOPS mentioned previously. Further, the Design Specification document
includes a list of “to-be-determined (TBD) items.” The list was used to identify and track all
TBD items uncovered during the development of the WAHS. The document states all open
questions and issues should be identified, documented, and tracked to completion within the
WAHS Design Specification Appendix. The version dated April 23, 2008 contained 32 TBD
items in the “open” status. Many of these open items related to system security. WAHS
management personnel were unable to provide updates to the Design Specification document
indicating these items were ever closed.

Security Testing

NARA’s Enterprise Architecture IT Security Requirements contain security assessment
requirements for the agency’s IT programs. Specifically, the requirements state for all data, NHI
shall develop a security assessment plan. Further, NHI is required to, at least annually, assess the
security controls in the information system to determine the extent to which the controls are
implemented correctly, operating as intended, and producing the desired outcome with respect to
meeting the security requirements for the system. NHI is required to produce a security
assessment report that documents the results of the assessment.

NH personnel provided two documents that detailed security testing results, both of which took
place prior to the WAHS entering production. These documents included: 1) Risk Assessment


                                                Page 25
                             National Archives and Records Administration
                                                                                  OIG Audit Report 11-20


Results, dated July 8, 2008 and 2) Security Assessment Plan and Procedures, also dated July 8,
2008. The Risk Assessment contained 16 different risk elements, ranging from unsuccessful
login attempts to configuration change control. The assessment of nearly all risk elements
indicated the WAHS was not in production and that it resided only in a test environment with no
outside connections. As a result, the vast majority of the assessments concluded that the controls
should be revisited once the system is in production. NH personnel were unable to provide
definitive support that these controls were reassessed once the WAHS entered production.

As with the Risk Assessment, the Security Assessment Plan and Procedures report tested the
requirements derived from NARA Security Architecture and NIST 800-53. A number of the
requirements tested either failed or were deferred. Again, reasons for the deferred results were
often explained by the WAHS not being in production at the time and that once in production,
the controls would be implemented. However, NH personnel were unable to provide support
that such actions actually took place. Further, NH personnel explained the WAHS is somewhat
of anomaly, as most systems never have deferred testing 2. NH personnel stated “a lot of people
said we have to hurry up and test this thing, but a lot of the mechanisms weren’t in place.”

Further, some of the requirements tested during the Security Assessment were identified as
passing, when current data indicates that they are not. Examples include patch management and
auditable events. The flaw remediation category tested in the WAHS Security Assessment
requires organizations to promptly install newly released security relevant patches. The results
for this test indicated a pass rating, noting that patches will be installed once the system is
transitioned into production. However, in a November 2010 NARA Information Security audit
performed by GAO, the Citrix VPN server and client—key components of NARA’s WAHS—
were specifically identified as missing security patches. In addition, under the auditable events
category tested in the WAHS Security Assessment, one of the associated requirements indicated
that the information system generates audit records for events such as unsuccessful login
attempts. Although the test results for this requirement indicated the Citrix Appliance passed,
NH officials stated this capability only became available in March 2011—nearly three years after
the testing took place.

WAHS Administration

In addition to assessing the documented security requirements and associated test plans, we also
reviewed the ongoing administration of the WAHS as it relates to security control. NH
personnel provided information and documentation that pertains to continuous efforts taken to
ensure NARA’s remote access system remains secure. Such procedures and documents are
detailed below.

2
  NARA OIG Audit Report No. 09-15, “Audit of NARA’s Work-at-Home System,” dated September 29, 2009,
identified concerns related to the WAHS not meeting OMB and NIST requirements prior to full implementation.
Although management concurred with the recommendation to ensure requirements were met, WAHS documentation
indicates a number of deferred and failed security testing at the time of implementation.

                                                Page 26
                             National Archives and Records Administration
                                                                             OIG Audit Report 11-20


When discussing the identified issues in the requirements and test documentation, NH officials
stated the WAHS security documentation has been superseded by the SSP. NH personnel
indicated that the WAHS falls under the SSP for Network Infrastructure. Although the Network
Infrastructure SSP is dated April 8, 2010, the plan has not been updated to reflect the WAHS.
For example, the SSP states “currently, NARA employs a VPN solution that does not employ a
two-factor authentication scheme.” In addition, the SSP states “NARA currently has a project
underway to develop a remote access capability to support users’ ability to telework.” However,
according to NH officials, the WAHS was in full operation by September 2009, therefore, this
should have been reflected in the April 2010 SSP. Further, although NH officials stated the SSP
supersedes the earlier security documentation, the SSP specifically states “for more information
on this solution, and a detailed discussion of the design and security mechanisms, please refer to
the following documents,” which include the WAHS CONOPS and Initial Requirements
Specification, Work At Home Full Proposal, and WAHS Design Specification detailed earlier.

Shortly before the WAHS went into initial production, the WAHS Business Process Owner
entered into a Service Level Agreement (SLA) with the Office of Information Technology
Services Division (NHT). According to the August 4, 2008 SLA, in order to ensure the security
of hosting platforms and operational infrastructure, certain activities (running scans, installing
security patches, monitoring activity, etc.) were to be conducted prior to transitioning the WAHS
to an operational state. As the service provider, NHT was responsible for performing these
activities; however, NH officials stated many of these security activities were actually the
responsibility of NHI.

In terms of installing security patches, NIST 800-46, Guide to Enterprise Telework and Remote
Access Security, states it is particularly important for organizations to ensure that remote access
servers are kept fully patched. However, as mentioned earlier, GAO identified key components
of NARA’s WAHS were missing security patches. NH officials stated patch management is an
issue on all NARA servers and the issue is being addressed through their plan of action and
milestones process.

In addition, the SLA states if there are any findings or security vulnerabilities discovered on the
WAHS after it has been placed in an operational state, NH will take immediate steps to secure
the platform. One vulnerability impacting the WAHS—which was mentioned previously—is the
RSA token breach. When the breach became known, US CERT issued required mitigation
procedures to agencies employing RSA tokens. Although these mitigation procedures were
identified in March 2011, some have yet to be implemented at NARA. These include requiring

                                        NH indicated that the impact of these changes are still
under review by the CISO and are not yet implemented. NH officials stated they are waiting to
see how events progress. However, during this time the network of a major military contractor
that also uses the RSA token was hacked. The network compromise occurred despite the
addition of a secondary password to its remote log-in process.

                                               Page 27
                            National Archives and Records Administration
                                                                            OIG Audit Report 11-20


NH officials informed US CERT that one of the mitigation efforts NARA has undertaken to
address the RSA vulnerability is to enable extensive logging. Specifically, this includes
extensive logging for all enterprise authentication servers and collection of IP addresses of the
system accessing the service, the username, the resource accessed, and whether the attempt was
successful or not. However, when log reports were requested, NH officials indicated the log
capability for Citrix logging server has a “broken” password. The NH official stated they
“believe the logs are there, we just don’t have access to log into the server.” This has been the
situation since at least the beginning of May 2011. NH officials did, however, provide logs
generated by the RSA authentication server, although these did not
                     . Further, the RSA authentication is only one component of the process. If
the RSA authentication is compromised, NH officials indicated they

                    .

Further, while other RSA clients are urgently lining up to replace their compromised tokens, in
response to the Committee on National Security Systems, NH officials stated NARA did not
need to be on the priority list. NH officials indicated there was less urgency because NARA—
like the hacked military contractor mentioned earlier—has an additional password credential in
place. Additionally, NH officials indicated a plan is in place at NARA to deploy an alternative.
NH officials stated they will be deploying the infrastructure to support the HSPD-12 compliant
PIV card in less than six months, by the mandatory October 1, 2011 deadline. However, NH
officials stated an enterprise-wide capability is dependent upon the acquisition of card readers
and middleware, which reflect a significant life-cycle cost.

Impact of WAHS Vulnerabilities

NIST recognizes that remote access servers provide a way for external hosts to gain access to
internal resources; therefore, their security is particularly important. However, despite the added
risk associated with remote access, NARA did not thoroughly develop and test the WAHS in
accordance with security policy. The WAHS was rushed through security assessment testing by
deferring many key security tests. Once the system went into production, there is little evidence
the deferred testing was ever reassessed. NH officials stated the remote access security is
encompassed within the SSP, however, the plan does not reflect the remote access controls and
system currently in place. Now that the system is fully operational, identified vulnerabilities
remain unmitigated and inadequate responses to new threats leaves the WAHS susceptible to
compromise.

Recommendations

3. We recommend the Executive for Information Systems and Chief Information Officer (I) and
   the Executive for Business Support Services (B):



                                              Page 28
                           National Archives and Records Administration
                                                                       OIG Audit Report 11-20


      a. Ensure all deferred and failed security tests have been reassessed and the results
         documented.
      b. Update SSP to reflect NARA’s remote access system.
      c. Ensure all RSA breach mitigating procedures reported to US CERT are implemented
         and functioning.
      d. Monitor compliance with HSPD-12 to ensure established deadlines are met.
      e. Review Citrix security configurations for adequacy.
      f. Ensure WAHS patches are current and monitored.
      g. Develop a plan with General Counsel (NGC) to protect PII and NARA proprietary
         information from being distributed or compromised over the network and e-mail
         system.
      h. Establish a cross functional team with the Office of Human Capital (H) to ensure
         remote access capabilities will meet increased NARA telework demands and to
         ensure appropriate security guidance is included in NARA telework policy.


Management Response

Management concurred with the recommendations.




                                           Page 29
                        National Archives and Records Administration
                                                                                            OIG Audit Report 11-20


Appendix A – GAO Key Telework Practices for
Implementation of Successful Federal Telework Programs

Program planning
• Designate a telework coordinator.
• Establish a cross-functional project team, including, for example, information technology (IT), union representatives,
  and other stakeholders.
• Establish measurable telework program goals.
• Develop an implementation plan for the telework program.
• Develop a business case for implementing a telework program.
• Provide funding to meet the needs of the telework program.
• Establish a pilot program.
Telework policy
• Establish an agency-wide telework policy.
• Establish eligibility criteria to ensure that teleworkers are selected on an equitable basis using criteria such as
  suitability of tasks and employee performance.
• Establish policies or requirements to facilitate communication among teleworkers, managers, and coworkers.
• Develop a telework agreement for use between teleworkers and their managers.
• Develop guidelines on workplace health and safety issues to ensure that teleworkers have safe and adequate
  places to work off-site.
Performance management
• Ensure that the same performance standards, derived from a modern, effective, credible, and validated
  performance system, are used to evaluate both teleworkers and non-teleworkers.
• Establish guidelines to minimize adverse impact on non-teleworkers before employees begin to work at alternate
  worksites.
Managerial support
• Obtain support from top management for a telework program.
• Address managerial resistance to telework.
Training and publicizing
• Train all involved, including, at a minimum, managers and teleworkers.
• Inform workforce about the telework program.
Technology
• Conduct assessment of teleworker and organization technology needs.
• Develop guidelines about whether organization or employee will provide necessary technology, equipment, and
  supplies for telework.
• Provide technical support for teleworkers.
• Address access and security issues related to telework.
• Establish standards for equipment in the telework environment.
Program evaluation
• Establish processes, procedures, and/or a tracking system to collect data to evaluate the telework program.
• Identify problems and/or issues with the telework program and make appropriate adjustments.
Source: GAO analysis of telework-related literature and guidelines.




                                                    Page 30
                                 National Archives and Records Administration
                                                              OIG Audit Report 11-20


Appendix B – Management’s Response to the Report




                                  Page 31
               National Archives and Records Administration
                                                                         OIG Audit Report 11-20


Appendix C - Report Distribution List

Archivist of the United States (N)
Deputy Archivist of the United States (ND)
Chief Operating Officer (C)
Chief Human Capital Officer (H)
Executive for Information Services and Chief Information Officer (I)
Executive for Business Support Services (B)
Performance and Accountability Office (CP)




                                             Page 32
                          National Archives and Records Administration
